HHS/OIG-AUDIT--Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the Nebraska Department of Social Services
(A-06-95-00069)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the Nebraska Department of Social Services," (A-06-95-00069)
December 24, 1996
Complete
Text of Report is available in PDF format (813K). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
At the request of the Health Care Financing Administration (HCFA), the Office
of Inspector General (OIG) conducted a nationwide review of pharmacy acquisition
costs for drugs reimbursed under the Medicaid prescription drug program. Since
most States reimburse pharmacies for Medicaid prescriptions using a formula which
discounts the average wholesale price (AWP), the objective of our review was to
develop an estimate of the discount below AWP at which pharmacies purchase brand
name and generic drugs.
To accomplish our objective, we selected a random sample of 11 States from a universe
of 48 States and the District of Columbia. Arizona was excluded from the universe
of States because the Medicaid drug program is a demonstration project using prepaid
capitation financing and Tennessee was excluded because of a waiver received to
implement a statewide managed care program for Medicaid. Nebraska was one of the
sample States selected, as well as California, Delaware, District of Columbia,
Florida, Maryland, Missouri, Montana, New Jersey, North Carolina, and Virginia.
Additionally, we selected a sample of Medicaid pharmacy providers from each State
and obtained invoices of their drug purchases. The pharmacies were selected from
each of five categories--rural-chain, rural-independent, urban-chain, urban-independent,
and non-traditional pharmacies (nursing home pharmacies, hospital pharmacies, etc.).
We included the non-traditional category so as to be able to exclude those pharmacies
from our overall estimates. We believed such pharmacies purchase drugs at substantially
greater discounts than retail pharmacies, and including them would have inflated
our percentages.
We compared each invoice drug price to AWP for that drug and calculated the percentage,
if any, by which the invoice price was discounted below AWP. We then projected
those differences to the universe of pharmacies in each category for each State
and calculated an overall estimate for each State. Additionally, we projected the
results from each State to estimate the nationwide difference between AWP and invoice
price for each category.
In Nebraska we obtained pricing information from 43 pharmacies. Specifically,
we obtained 2,742 invoice prices for brand name drugs, and 1,114 invoice prices
for generic drugs. For Nebraska the overall estimate of the extent that invoice
prices were discounted below AWP was 18.7 percent for brand name drugs and 44.9
percent for generic drugs. The national estimates are 18.3 percent and 42.5 percent,
respectively. The estimates combine the results for four categories of pharmacies
including rural-chain, rural-independent, urban-chain, and urban-independent and
exclude the results obtained from non-traditional pharmacies.
We are recommending that the Nebraska Department of Social Services (State Agency)
consider the results of this review as a factor in any future changes to pharmacy
reimbursement for Medicaid drugs. We will share the information with HCFA from
all 11 States in a consolidation report for their use in evaluating the overall
Medicaid drug program.
The Director of the State Agency responded to our draft report in a letter dated,
October 16, 1996. The Director stated that our review was the first information
of its type that the State Agency has had access to in 10 years. The Director also
stated that the information would be useful to the State Agency in setting adequate
pharmacy reimbursement rates in the future.